                                                                   OCCUPATIONAL SAFETY AND HEALTH
                                                                   ADMINISTRATION
U.S. Department of Labor
                     Office of Inspector General—Office of Audit




                                                                   RECOVERY ACT: OSHA ACTIVITIES UNDER
                                                                   THE RECOVERY ACT




                                                                   This audit was performed by Harper, Rains, Knight & Company
                                                                   P.A., CPAs, under contract to the Office of Inspector General, and
                                                                   by acceptance, it becomes a report of the Office of Inspector
                                                                   General.


                                                                                  Assistant Inspector General for Audit




                                                                                                Date Issued:            July 16, 2013
                                                                                             Report Number:         18-13-004-10-105
U.S. Department of Labor                                  July 2013
Office of Inspector General
Office of Audit                                           Recovery Act: OSHA Activities Under the
                                                          Recovery Act

BRIEFLY…                                                  WHAT OIG FOUND
Highlights of report number 18-13-004-10-105, issued      OSHA obligated $7.7 million under the Department of
to the Assistant Secretary for Occupational Safety and    Labor’s Recovery Act and disbursed $7.2 million of
Health.                                                   the funds on Recovery Act related activities. OSHA
                                                          did not obligate the remaining $5.9 million in Recovery
WHY READ THE REPORT                                       Act funds.
The American Recovery and Reinvestment Act of
2009 (Recovery Act) was passed to preserve and            OSHA obligated $2.2 million in funding, and disbursed
create jobs, promote economic recovery, and assist        $1.6 million of these funds for contracts and orders. Of
those most impacted by the recession. The Recovery        this, $0.6 million was used to collect injury and illness
Act provided approximately $80 million to the             data from approximately 20,000 high-risk designated
Department of Labor (DOL) for Departmental                construction firms. OSHA could not provide evidence
Management (DM) funds. Of this, DOL transferred           the additional data was used to target 200 additional
approximately $13.6 million to its Occupational Safety    inspections as identified in the OSHA Recovery Act
and Health Administration (OSHA) for enhanced             Plan.
inspection and enforcement activities.
                                                          OSHA made $3.7 million available to State Plan
The inspection and enforcement programs are central       states to increase inspection and enforcement
activities of OSHA’s core mission, which is to ensure a   activities at Recovery Act-funded projects. OSHA
safe and healthy workplace for every working man          disbursed $1.2 million to 7 of the 27 State Plan states.
and woman in the nation. OSHA had until September
30, 2011 to obligate these funds.                         OSHA obligated and disbursed $4.3 million for
                                                          salaries and expenses related to federal Recovery Act
                                                          enforcement activities. Recovery Act coded data in
WHY OIG CONDUCTED THE AUDIT                               OSHA’s information databases show OSHA exceeded
We conducted a performance audit of the use of            its goal to increase federal Recovery Act inspections
Recovery Act funds provided to and administered by        for FYs 2009, 2010, and 2011. However, 21 percent
OSHA. The audit objectives were to answer the             of the inspections sampled during this audit did not
following questions:                                      contain documentation to support such coding.
(1) How did OSHA spend Recovery Act funds and did
    it achieve its objectives for increased compliance
                                                          WHAT OIG RECOMMENDED
    assistance, construction data, and State Plan         We recommended the Assistant Secretary for
    state enforcement activities?                         Occupational Safety and Health: 1) develop a
                                                          framework for implementing temporarily-funded
(2) Did OSHA achieve its objective, as described in       inspection programs; and 2) identify and record the
    its Recovery Act Plan, to conduct additional          source of an inspection in its information databases.
    inspections and enforcement activities?
                                                          The Assistant Secretary accepted our
                                                          recommendations and agreed to develop a framework
READ THE FULL REPORT                                      for implementing the recommendations.
To view the report, including the scope, methodology,
and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2013/18-13-
004-10-105.pdf.
           Prepared by Harper, Rains, Knight & Company, P.A.
For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                   Recovery Act: OSHA Activities
                                    Report No. 18-13-004-10-105
                                              Prepared by Harper, Rains, Knight & Company, P.A.
                                   For the U. S. Department of Labor – Office of Inspector General


Table of Contents
Independent Auditors’ Report ...................................................................................... 1

Results in Brief .............................................................................................................. 2

Objective 1 — How did OSHA spend Recovery Act funds and did it achieve its
objectives for increased compliance assistance, construction data, and State
Plan state enforcement activities? .............................................................................. 4
         OSHA spent funds as described in its Recovery Act Plan .................................... 4

         OSHA met its goal of increased compliance assistance, construction data
         and State Plan state enforcement activities. However, OSHA could not link
         the use of expanded construction injury and illness data to Recovery Act
         Inspections. .......................................................................................................... 4

Objective 2 — Did OSHA achieve its objective, as described in its Recovery Act
Plan, to conduct additional inspections and enforcement activities? ..................... 6
         Documentation to match inspections recorded as Recovery Act was
           limited and OHSA did not measure emphasis program impact ....................... 6

         OSHA did not provide consistent support for reported Recovery Act
         inspections and even though it established emphasis programs at the
         regional and local level, it did not establish a way to measure their
         effectiveness......................................................................................................... 6

Recommendations ........................................................................................................ 9

Exhibit
         Exhibit 1 OSHA Spending by Activity ................................................................. 13
         Exhibit 2 OSHA Contracts and Orders ............................................................... 15
         Exhibit 3 OSHA Discretionary Grant Funding ..................................................... 17
         Exhibit 4 Manufacturing Industries Related to Recovery Act Activity by SIC
            and NAICS Codes ......................................................................................... 19
         Exhibit 5 OSHA Listing of Recovery Act-Related Local Emphasis
            Programs and Regional Emphasis Programs ............................................... 25

Appendices
         Appendix A Background ..................................................................................... 33
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 35
         Appendix C Acronyms and Abbreviations .......................................................... 37
         Appendix D OSHA Response to Draft Report .................................................... 39


                                                                                        Recovery Act: OSHA Activities
                                                                                         Report No. 18-13-004-10-105
           Prepared by Harper, Rains, Knight & Company, P.A.
For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                   Recovery Act: OSHA Activities
                                    Report No. 18-13-004-10-105
                                       Prepared by Harper, Rains, Knight & Company, P.A.
                            For the U. S. Department of Labor – Office of Inspector General




July 16, 2013

                                 Independent Auditors’ Report

Dr. David Michaels
Assistant Secretary
 for Occupational Safety and Health
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was passed to
preserve and create jobs, promote economic recovery, and assist those most impacted
by the recession. Title VIII of the Recovery Act provided the Department of Labor with
$80 million for Departmental Management (DM) funds specifically for the enforcement
of worker protection laws and regulations, oversight, and encouraging collaboration
between the public workforce investment system and other agencies that received
Recovery Act funds for infrastructure projects. As part of its operating plan for DM
funds, the Department included transferring approximately $13.6 million to the
Occupational Safety and Health Administration (OSHA) for enhanced inspection,
enforcement and outreach activities.

We conducted a performance a udit of the use o f Recovery A ct f unds pr ovided t o an d
administered by the Department of Labor’s (DOL) OSHA. The audit objectives were to
answer the following questions:

(1)   How di d O SHA s pend R ecovery A ct f unds and did i t achieve its obj ectives f or
      increased c ompliance as sistance, c onstruction d ata, a nd State P lan s tate
      enforcement activities?

(2)   Did O SHA achieve i ts obj ective, as d escribed i n i ts R ecovery Act P lan, t o
      conduct additional inspections and enforcement activities?


            Harper, Rains, Knight & Company, P.A. • Certified Public Accountants • Consultants
       One Hundred Concourse • 1052 Highland Colony Parkway, Suite 100 • Ridgeland, Mississippi 39157
                    Telephone 601.605.0722 • Facsimile 601.605.0733 • www.hrkcpa.com

                                                                          Recovery Act: OSHA Activities
                                                      1                    Report No. 18-13-004-10-105
                                    Prepared by Harper, Rains, Knight & Company, P.A.
                         For the U. S. Department of Labor – Office of Inspector General

To conduct our audit, we interviewed officials at OSHA’s National Office, four Regional
Offices, and four State Plan states with OSHA-approved occupational safety and health
plans. We reviewed budgets and sub-ledgers and statistically selected 163 of the 5,669
Recovery Act coded inspections. The audit period covered February 17, 2009, the
inception date of the Recovery Act, through September 30, 2011.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Further background information appears in Appendix A. Our complete
scope, methodology, and criteria are contained in Appendix B.

RESULTS IN BRIEF

OSHA obligated $7.7 million, of which $7.2 had been disbursed on: (1) contracts and
orders for outreach programs; (2) discretionary grants to State Plan states for
enforcement; and (3) salaries and expenses (S&E) for inspections and enforcement
activities (See Exhibit 1). However, OSHA did not obligate the remaining $5.9 million in
Recovery Act funds for a number of reasons, including delays in federal and state
agencies distribution of Recovery Act funds and the low number of State Plan states
responding to OSHA’s discretionary grant solicitation. The funds expired at the end of
fiscal year (FY) 2010, as directed in the Recovery Act.

OSHA obligated $2.2 million, of which $1.6 million had been disbursed on contracts and
orders. Of the $1.6 million disbursed, $1 million was used to produce a series of
guidance documents and electronic compliance assistance tools for employers and
workers when implementing Recovery Act projects. OSHA exceeded its Recovery Act
Plan goal of issuing two guidance documents. The remaining $0.6 million was used to
meet the OSHA Recovery Act Plan of collecting injury and illness data from
approximately 20,000 construction firms, designated as high-risk. OSHA targeted
Recovery Act inspections from a variety of sources. We could not determine whether
OSHA met its goal of targeting 200 worksites for Recovery Act inspections using the
expanded construction data.

OSHA offered $3.7 million to State Plan states to increase inspection and enforcement
activities at Recovery Act-funded projects. It awarded $1.6 million, and distributed $1.2
million, to 7 of the 27 State Plan states. It then de-obligated $0.4 million of the unused
funds. All 7 states met the grant requirements of matching funds. However, Tennessee
and New Jersey opted to return grant funds and therefore did not meet grant objectives
for inspections performed. Each of the other 5 States met or exceeded the total number
of inspections stated in the grant objectives.

OSHA obligated $4.3 million, of which $4.3 million had been disbursed on salaries and
expenses for federal Recovery Act enforcement activities. OSHA’s reporting in the

                                                             Recovery Act: OSHA Activities
                                             2                Report No. 18-13-004-10-105
                                         Prepared by Harper, Rains, Knight & Company, P.A.
                              For the U. S. Department of Labor – Office of Inspector General

Integrated Management Information System (IMIS) and OSHA Information System
(OIS 1) reflected that OSHA surpassed its goal to increase federal Recovery Act
inspections over FYs 2009, 2010, and 2011 by conducting 5,669 inspections. However,
because OSHA targeted inspections using a variety of sources and did not consistently
record the sources used, matching documentation to inspections recorded as Recovery
Act was difficult. Thirty-five (21 percent) of the 163 Recovery Act-coded inspections we
sampled did not contain documentation that supported such coding. OSHA targeted
federal enforcement activity through the implementation of emphasis programs at the
local and regional level. However, no outcome measures were associated with the
creation of these emphasis programs. Therefore, we could not measure if the programs
improved safety and health at Recovery-Act worksites. Additionally, OSHA used these
funds to provide guidance to State Plan states to enhance the States’ enforcement
activities at Recovery Act sites. OSHA was able to demonstrate successfully it provided
this guidance.

We recommended, as lessons learned, OSHA develop a framework for implementing
temporarily-funded inspection programs, and identify and record the source of
inspections in its information databases. Since OIG and GAO previously recommended
that OSHA establish outcome measures to evaluate the impact of its enforcement
efforts, we are not including such a recommendation in this report. 2

The Assistant Secretary accepted our recommendations and agreed to develop a
framework for implementing the recommendations. The Assistant Secretary also stated,
“the OIG found OSHA met or exceeded its program goals and objectives to successfully
provide enforcement and compliance assistance activities as outline in the Recovery
Act Plan.” While we did find OSHA met its goal of increased compliance assistance,
construction data, and State Plan state enforcement activities, we could not verify that
OSHA met its goal of increased federal inspections for Recovery Act worksites. Twenty-
one percent of inspections sampled did not contain documentation to support Recovery
Act coding. The Assistant Secretary’s entire response is contained in Appendix D.




1
  Starting October 1, 2012, all new inspections have been recorded in OIS.
2
  OIG report 02-10-201-10-105, issued September 2010; OIG report 02-11-201-10-105 issued March 2011; and OIG
report No. 01-12-202-10-105 issued September 2012. GAO report GAO-13-61, issued January 2013.

                                                                          Recovery Act: OSHA Activities
                                                       3                   Report No. 18-13-004-10-105
                                            Prepared by Harper, Rains, Knight & Company, P.A.
                                 For the U. S. Department of Labor – Office of Inspector General

RESULTS

Objective 1 —How did OSHA spend Recovery Act funds and did it achieve its
             objectives for increased compliance assistance, construction data,
             and State Plan state enforcement activities?


                  OSHA spent funds as described in its Recovery Act Plan.

OSHA met its goal of increased compliance assistance, construction data and State
Plan state enforcement activities. However, OSHA could not link the use of expanded
construction injury and illness data to Recovery Act Inspections.

Per the Departments’ DL Form 1-182 3 provided by OSHA, in FY 2009, the Department
allotted OSHA $7.2 million in Recovery Act Departmental Management (DM) funds and
allotted OSHA an additional $6.4 million of such funds in FY 2010. In total, OSHA
received $13.6 million of Recovery Act DM funds.

As of June 8, 2012, per the published Recovery Act DOL Weekly Financial and Activity
Report, OSHA had obligated $7.7 million and expended $7.2 million (see Exhibit 1). The
funds were expended on the following products and activities: compliance assistance
and outreach; construction industry data collection; and increased federal and State
Plan state enforcement activities. OSHA planned to target enforcement resources by
developing and implementing local and national emphasis programs of Recovery Act-
funded and related projects and encourage State Plan states to do the same.

OSHA did not obligate the remaining $5.9 million in Recovery Act funds and the funds
expired at the end of FY 2010, as directed in the Recovery Act. The reasons OSHA did
not obligate these funds included delays in federal and state distribution of Recovery
Act funds for projects; the low number of State Plan state programs 4 (7 out of 27)
applying for Recovery Act-funded discretionary grants; two State Plan state program
grant recipients returned Recovery Act grant funds; and insufficient ways for inspectors
to find out when projects started resulting in inspectors arriving at worksites to find that
projects were not yet underway. Finally, the funding was only available for obligation
until September 30, 2010.

The amount of Recovery Act funds OSHA spent and a description of OSHA’s Recovery
Act goals for compliance assistance and outreach, increased construction industry data
collection, and increased inspections and enforcement activities for State Plan states
are discussed in the following paragraphs. OSHA’s federal Recovery Act enforcement
spending and goals are described in Objective 2.

3
  The DL Form 1-182 is the Request for Allotment document used at DOL. The form identifies the allotment an
agency will receive and is signed by the DOL’s Director of the Departmental Budget Center.
4
  Section 23(g) of the Occupational Safety and Health Act of 1970, provides for the authorization of grants to States
by the Secretary of Labor to assist the states in administering and enforcing programs State health and safety
programs.

                                                                                 Recovery Act: OSHA Activities
                                                            4                     Report No. 18-13-004-10-105
                                   Prepared by Harper, Rains, Knight & Company, P.A.
                        For the U. S. Department of Labor – Office of Inspector General


Compliance Assistance and Outreach

OSHA’s Recovery Act Plan stated OSHA would produce “compliance assistance and
outreach materials” to provide safety and health information to workers and employers
engaged in Recovery Act-funded work. OSHA’s goal or measure for this activity was to
produce two documents that provided safety and health information to the employers
and workers on Recovery Act-funded or related projects.

In order to achieve this goal, OSHA awarded approximately $1.6 million in funding
through five contracts and orders for guidance materials (see Exhibit 2). As of
June 8, 2012, approximately $1.0 million was disbursed. Through these contracts,
OSHA exceeded its Recovery Act goal of publishing two additional guidance documents
and compliance assistance products. The majority of the outreach materials produced
were in electronic format and made accessible to employers and employees through the
OSHA website. Printed documents related to heat-illness/heat-stress prevention were
sent directly to Regional offices for distribution.

Increased Construction Industry Data Collection

OSHA’s Recovery Act Plan included a Construction Data Collection project to expand
an ongoing OSHA funded survey to collect injury and illness data from approximately
20,000 construction firms. The Recovery Act Plan stated that using the results of the
survey, OSHA would identify industry sectors, including individual firms, which have a
greater propensity for injuries and illnesses. The Recovery Act Plan set as a target
conducting 200 inspections from a list of firms OSHA identified as “high-risk.”

OSHA awarded approximately $597,000 to an existing contract to collect this data (see
Exhibit 2). By June 8, 2012, all $597,000 was disbursed. OSHA posted the data to
OSHA’s intranet for OSHA Regional staff and staff of State Plan states to use as an
additional source of information to target inspections to high-risk, Recovery Act-funded
construction projects.

OSHA targeted inspections using a variety of sources and did not consistently record
the sources used. Therefore, matching documentation to inspections recorded as
Recovery Act was difficult. As a result, we could not determine if OSHA met its goal of
using the expanded construction data to target an additional 200 Recovery Act
inspections. OSHA current coding and recordkeeping for inspections, including
inspections of Recovery Act-funded or related worksites, does not record the data
source used to target inspections.

Increased Inspections and Enforcement Activities for State Plan States

OSHA made available $3.7 million in discretionary grants to State Plan states to direct
state enforcement resources to sites and industries affected by projects supported by
the Recovery Act. The State Plan states were to deploy compliance officers to Recovery

                                                            Recovery Act: OSHA Activities
                                             5               Report No. 18-13-004-10-105
                                   Prepared by Harper, Rains, Knight & Company, P.A.
                        For the U. S. Department of Labor – Office of Inspector General

Act-funded projects and related industries. Seven of the 27 State Plan states applied for
and were awarded grants totaling nearly $1.6 million, of which $1.2 million was
obligated and disbursed (see Exhibit 3). OSHA subsequently de-obligated the unused
$0.4 million. The grant agreements included a matching fund requirement of
100 percent of grant funds awarded.

The seven State discretionary grants and amounts awarded were as follows:

      •   California for $765,070
      •   Michigan for $100,000
      •   Minnesota for $166,945
      •   New Jersey for $32,495
      •   New Mexico for $50,000
      •   Oregon for $185,979
      •   Tennessee for $300,000

Two states, Tennessee and New Jersey, chose to discontinue the grant soon after it
was awarded. Tennessee returned $289,635 to OSHA, indicating more funds were
available through the normal OSHA State Plan state funding process and decided the
normal process was a more efficient use of state matching funds. New Jersey returned
$19,952 to OSHA, indicating in its quarterly award summary reports that the expected
number of Recovery Act projects did not materialize; therefore, fewer inspections were
performed than planned. Additionally, two other states, Minnesota and New Mexico, did
not use all the funds available to them, in the amounts of $43,617 and $2,065,
respectively.

All seven States met the grant requirements of matching funds (the matching fund
requirement was 100 percent of the grant funds disbursed), including Tennessee and
New Jersey.

With the exception of Tennessee and New Jersey, as mentioned above, each of the
other five States met or exceeded the total number of inspections stated in the grant
objectives. For four States, California, Michigan, Minnesota, and Tennessee, we
confirmed on-site the number of inspections conducted by reviewing documentation of
the inspections. For the other three States, we reviewed quarterly reports the states
submitted to OSHA on inspections conducted.

Objective 2 — Did OSHA achieve its objective, as described in its Recovery Act
             Plan, to conduct additional inspections and enforcement activities?

      Documentation to match inspections recorded as Recovery Act was limited and
      OSHA could not measure emphasis programs impact.

OSHA did not provide consistent support for reported Recovery Act inspections and
even though it established emphasis programs at the regional and local level, it did not
establish a way to measure their effectiveness.

                                                             Recovery Act: OSHA Activities
                                             6                Report No. 18-13-004-10-105
                                           Prepared by Harper, Rains, Knight & Company, P.A.
                                For the U. S. Department of Labor – Office of Inspector General


OSHA funded the additional inspection and enforcement activities with $4.3 million in
Recovery Act funds allocated to spending for salaries and expenses. OSHA employees
recorded the number of hours devoted to Recovery Act activities in the Department’s
timekeeping and payroll system. Once supervisors approved the employees’
timesheets, the portion of employees’ hours coded as Recovery Act were compensated
using Recovery Act funds. OSHA Inspectors also identified time spent on inspections in
a weekly program activity report called the OSHA 31. A Recovery Act tracking sheet
noted what inspections recorded on the OSHA 31 were Recovery Act inspections.

OSHA’s Recovery Act Plan identified the goal of conducting 525 and 2,200 Recovery
Act inspections in FY 2009 and FY 2010, respectively. OSHA reported exceeding the
goal for inspections as OSHA inspectors coded 2,237, 3,126, and 306 Recovery Act
inspections for FY 2009, FY 2010, and FY 2011, respectively. However, linking
documentation to inspections recorded as Recovery Act was difficult. Twenty-one
percent of a sample of 163 Recovery Act inspections did not include evidence to
support the designation of an inspection of a Recovery Act-funded or related worksite.

OSHA planned to target its enforcement resources through the development of Local
Emphasis Programs (LEP) and Regional Emphasis Programs (REP). 5 OSHA was able
to demonstrate the establishment of a total of 33 federal LEPs and REPs.

Federal Enforcement Activity – Recovery Act Inspections

OSHA’s National Office provided guidance to the Regions on what inspections should
be coded as Recovery Act through phone calls with the Regions and two emails
addressed to OSHA Regional Directors. The first email dated June 4, 2009, directed
CSHOs 6 when on site to ask, “Is this project partially or wholly ARRA funded?” It also
stated, “If the SIC or NAICS 7 of any inspection opened after April 22, 2009, matches the
SIC or NAICS of industries identified as a secondary support list, 8 code it as a Recovery
Act inspection using the code N 02 ARRA Optional Value.” 9 The second email dated
August 28, 2009, provided an updated list of secondary industries that may be related to
Recovery Act activity (see Exhibit 4). The guidance stated, “this list should be used as
guidance for CSHOs in determining whether or not an inspection site should be coded
as ARRA-related.” The guidance directed CSHOs to ask the following questions at each
inspection site to determine whether to code the inspection as Recovery Act:

5
  The programs implemented by a single Area Office are referred to as LEP, while those applied to all or more than
one Area Offices in a Region are referred to as REP. The terms LEP and REP are used interchangeably by OSHA to
mean any emphasis program that is not implemented at the national level.
6
  The formal title of OSHA inspectors is Compliance Safety and Health Officer abbreviated as CSHO.
7
  Standard Industrial Classification (SIC) was replaced by North American Industry Classification System (NAICS) in
1997. The NAICS is the standard used by federal statistical agencies in classifying business establishments for the
purpose of collecting, analyzing, and publishing statistical data related to the U.S. business economy.
8
  The secondary support list included manufacturing industries that may benefit indirectly from Recovery Act funding
because the manufacturer produces parts needed by a direct recipient of Recovery Act funds.
9
  Per OSHA guidance inspections identified as being partially or wholly funded with Recovery Act funds or industries
related to such funded projects are to be coded in the Optional Value field as N-02-ARRA. ARRA is used in this code
to mean American Recovery and Reinvestment Act of 2009 (ARRA).

                                                                               Recovery Act: OSHA Activities
                                                           7                    Report No. 18-13-004-10-105
                                          Prepared by Harper, Rains, Knight & Company, P.A.
                               For the U. S. Department of Labor – Office of Inspector General


             •   Does this product supply an Recovery Act-funded site?
             •   Does it make sense to be included?

We tested a statistical sample of 163 randomly selected inspections coded as Recovery
Act in IMIS and OIS to determine if the coding was supported. Linking documentation to
inspections recorded as Recovery Act was difficult and supporting documentation was
inconsistent. We found 39 sample inspections (24 percent) included supporting
documentation identifying the inspection worksite as Recovery Act-funded or Recovery
Act-related. The only support for 89 sample inspections (55 percent) coded as Recovery
Act was the worksites’ SIC or NAICS code was on the list of OSHA-provided secondary
industries. Finally, we identified 35 sample inspections (21 percent), for which there was
no evidence to support these inspections were conducted for Recovery Act-funded or
Recovery Act-related worksites.

Federal Enforcement Activities – Targeting Inspections

The OSHA Recovery Act Plan 10 under Major Planned Program Milestones identified
LEPs as a way to target enforcement efforts to Recovery Act-funded or related projects
to workplaces or industries OSHA considered high risk for worker safety.

OSHA staff in OSHA Regional Offices and Areas Offices developed and implemented a
total of 33 LEPs and REPs (see Exhibit 5). However, we could not evaluate the impact
LEPs and REPs had on improving worksite safety and health conditions at Recovery
Act-funded or related worksites as OSHA did not establish a baseline to evaluate LEP
and REP effectiveness. Recent OIG and GAO audits have found that the highest risk
industries and worksites were not always targeted and inspected and OSHA lacked
outcome-based performance metrics to measure and demonstrate the causal effect of
its Federal programs or the 27 state run worker safety and health programs. 11

Enhance and Target Recovery Act Sites in State Plan States

OSHA provided guidance to the State Plan states for enforcement efforts related to
worksites and industries affected by the Recovery Act. For example, OSHA shared
Recovery Act specific University of Tennessee Dodge Reports; 12 and the SIC and/or
NAICS manufacturing codes for industries that may be related to Recovery Act activity
(See Exhibit 4). The State Plan states reviewed indicated that they normally performed
inspections independent of federal OSHA, and they developed their own policies and
procedures for targeting Recovery Act inspections.

10
   The OSHA Recovery Act Plan was created following guidance provided in OMB Memorandum 09-15, “Updated
Implementation Guidance for the American Recovery and Reinvestment Act of 2009”, dated April 3, 2009, and found
here: http://www.recovery.gov/About/Documents/m09-15_April3.pdf.
11
   Since prior OIG and GAO reports recommend OSHA develop outcome measures to evaluate the effectiveness of
its enforcement efforts, we did not include such a recommendation in this report.
12
   The University of Tennessee Dodge Report database provides selected information on construction worksites from
which OSHA can identify potential inspections.

                                                                             Recovery Act: OSHA Activities
                                                         8                    Report No. 18-13-004-10-105
                                   Prepared by Harper, Rains, Knight & Company, P.A.
                        For the U. S. Department of Labor – Office of Inspector General

RECOMMENDATIONS

We recommend the Assistant Secretary for Occupational Safety and Health:

      (1) Develop and provide a clearly defined framework for implementing a
          temporarily funded inspection program. The process should specify the
          criteria and supporting documentation necessary for the program.

      (2) Ensure the origin of all inspections, including those temporarily funded, is
          documented, and that this data is captured in OIS.




                                                             Recovery Act: OSHA Activities
                                             9                Report No. 18-13-004-10-105
           Prepared by Harper, Rains, Knight & Company, P.A.
For the U. S. Department of Labor – Office of Inspector General




 PAGE INTENTIONALLY LEFT BLANK




                                   Recovery Act: OSHA Activities
                   10               Report No. 18-13-004-10-105
                      Prepared by Harper, Rains, Knight & Company, P.A.
           For the U. S. Department of Labor – Office of Inspector General




Exhibits




                                              Recovery Act: OSHA Activities
                              11               Report No. 18-13-004-10-105
           Prepared by Harper, Rains, Knight & Company, P.A.
For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                   Recovery Act: OSHA Activities
                   12               Report No. 18-13-004-10-105
                                                                    Prepared by Harper, Rains, Knight & Company, P.A.
                                                         For the U. S. Department of Labor – Office of Inspector General

                                                                             Exhibit 1
OSHA Spending by Activity

  Recovery Act Award Type                 Description                Total Obligations         Total Disbursements
Contracts and Orders             Eastern Research Group             $ 597,880                $ 597,880
Contracts and Orders             Eastern Research Group               643,998                  460,075
Contracts and Orders             Eastern Research Group               279,988                  140,126
Contracts and Orders             Eastern Research Group               400,000                  226,922
Contracts and Orders             Cloudburst Consulting Group           29,712                   16,537
Contracts and Orders             Oppix Productions Incorporated       200,000                  200,000
 Contracts and Orders Subtotal                                               $ 2,151,578                   $ 1,641,540
Discretionary Grant              CA-California                        765,070                  765,070
Discretionary Grant              MI-Michigan                          100,000                  100,000
Discretionary Grant              MN-Minnesota                         123,328                  123,328
Discretionary Grant              NJ-New Jersey                         12,543                   12,543
Discretionary Grant              NM-New Mexico                         47,935                   47,935
Discretionary Grant              OR-Oregon                            185,979                  185,979
Discretionary Grant              TN-Tennessee                          10,364                   10,364
 Discretionary Grant Subtotal                                                $ 1,245,219                   $ 1,245,219
Salaries and Expenses            Salaries and Expenses              4,331,715                4,327,685
 Other Subtotal                                                              $ 4,331,715                   $ 4,327,685
Totals                                                                       $ 7,728,512                   $ 7,214,444

Data source: DOL’s New Core Financial Management System (NCFMS) for Fund Code 04000910BD.




                                                                                            Recovery Act: OSHA Activities
                                                              13                             Report No. 18-13-004-10-105
           Prepared by Harper, Rains, Knight & Company, P.A.
For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                   Recovery Act: OSHA Activities
                   14               Report No. 18-13-004-10-105
                                                         Prepared by Harper, Rains, Knight & Company, P.A.
                                              For the U. S. Department of Labor – Office of Inspector General

                                                                  Exhibit 2
OSHA Contracts and Orders

  Contractor       Task Order     Funds      Funds                     Products Produced
                    Number       Obligated Disbursed
Eastern          DOLU109F31044    $279,988  $140,126 •   Guidance for Employers and Public Health
Research Group   DOLU109F31096                           Community on Workplace Accidents – OSHA 170
                 DOLU109F31691                           Forms Revision
                                                     • Several guidance documents were produced with
                                                         funds allocated to this task. The guidance
                                                         documents can be found on the OSHA public
                                                         network drive at Q:/direct/standards/TO #97
                                                         Combustible Dust, hard copies can are available
                                                         upon request.
                                                     • The contractor contributed to the development of
                                                         two documents: ‘Ergonomics for the Prevention of
                                                         Musculoskeletal Disorders-Draft Guidelines for
                                                         Foundries’ and its accompanying ‘shadow’
                                                         document listing all the references and sources for
                                                         the guidance. These documents are ‘internal
                                                         drafts’ and can be found on the OSHA shared
                                                         network at: Q:/direct/standards/TO #95 Guidelines
                                                         for Foundries, hard copies are also available,
                                                         upon request.
Eastern          DOLB099F28866     597,880   597,880 Contractor collected and processed work-related
Research Group                                       injury and illness data from approximately 20,000
                                                     construction firms. This data was then made available
                                                     on the OSHA intranet for Regions and State Plan
                                                     states as an additional source of information to target
                                                     inspections.
Eastern          DOLU109F31226     400,000   226,922 Contractor prepared the Cranes and Derricks
Research Group                                       Compliance Directive and the Field Operations


                                                                                 Recovery Act: OSHA Activities
                                             15                                   Report No. 18-13-004-10-105
                                                                  Prepared by Harper, Rains, Knight & Company, P.A.
                                                       For the U. S. Department of Labor – Office of Inspector General

  Contractor         Task Order        Funds         Funds                      Products Produced
                      Number          Obligated    Disbursed
                                                              Manual (FOM) Construction Section of Chapter 10.
Eastern           DOLB109F31225          643,998      460,075 Contractor provided assistance in developing several
Research Group                                                guidance documents:
                                                               • http://www.osha.gov/SLTC/heatillness/index.html
                                                               • http://www.osha.gov/SLTC/heatillness/heat_index
                                                                  /heat_app.html
                                                               • http://www.osha.gov/SLTC/heatstress/index.html
                                                               • http://www.osha.gov/dts/vtools/construction.html
Cloudburst       DOLB109F31098            29,712       16,537 Nanomaterials Safe Handling and Practices
Consulting Group                                              Guidelines for Laboratory/R&D Workplaces
Oppix            DOLB109F31099           200,000      200,000 The primary product (video) that this task order
Productions                                                   funded can be found at:
Incorporated                                                  https://www.osha.gov/video/respiratory_protection/co
                                                              nstruction.html
Total Funds                           $2,151,578   $1,641,540

Data source: Office of Science and Technology Assessment, Directorate of Standards and Guidance, and Directorate of
Construction.




                                                                                          Recovery Act: OSHA Activities
                                                      16                                   Report No. 18-13-004-10-105
                                                                  Prepared by Harper, Rains, Knight & Company, P.A.
                                                       For the U. S. Department of Labor – Office of Inspector General


                                                                           Exhibit 3
OSHA Discretionary Grant Funding


                                               Total Federal Funds
  State Plan State        Grant Amount                                  Matching Funds             Total Funds
                                                    Disbursed
California                         $ 765,070              $ 765,070               $ 765,070              $ 1,530.140
Michigan                             100,000                100,000                 100,000                  200,000
Minnesota                            166,945                123,327                 123,327                  246,654
New Jersey                            32,495                 12,543                  12,543                   25,086
New Mexico                            50,000                 47,934                  47,934                   95,868
Oregon                               185,979                185,979                 185,979                  371,958
Tennessee                            300,000                 10,364                  10,364                   20,728
Totals                           $ 1,600,489            $ 1,245,217             $ 1,245,217              $ 2,490,434

Source: Grant Closeout packages provided by OSHA and the DOL’s Recovery Act Financial and Activity Report as of
June 8, 2012.




                                                                                          Recovery Act: OSHA Activities
                                                     17                                    Report No. 18-13-004-10-105
           Prepared by Harper, Rains, Knight & Company, P.A.
For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                   Recovery Act: OSHA Activities
                   18               Report No. 18-13-004-10-105
                                 Prepared by Harper, Rains, Knight & Company, P.A.
                      For the U. S. Department of Labor – Office of Inspector General


                                                                       Exhibit 4
Manufacturing Industries Related to Recovery Act Activity by SIC and NAICS
Codes

Concrete Pipe:    SIC 3272 Concrete Products, Except Block and Brick
                  NAICS 327332 Concrete Pipe Manufacturing

Cast Iron Pipe:   SIC 3321 Gray and Ductile Iron Foundries
                  SIC 3498 Fabricated Pipe and Pipe Fittings
                  NAICS 331511 Iron Foundries

I-Beams:          SIC 3312 Steel Works, Blast Furnaces (Including Coke Ovens),
                    and Rolling Mills
                  SIC 3441 Fabricated Structural Metal
                  SIC 3446 Architectural and Ornamental Metal Work
                  SIC 3449 Miscellaneous Structural Metal Work
                  NAICS 332312 Fabricated Structural Steel Metal Manufacturing

Rivets:           SIC 3452 Bolts, Nuts, Screws, Rivets, and Washers
                  NAICS 332722 Bolt, Nut, Screw, Rivet, and Washer Manufacturing

Foundries:        SIC 3321 Gray and Ductile Iron Foundries
                  SIC 3322 Malleable Iron Foundries
                  SIC 3325 Steel Foundries, Not Elsewhere Classified
                  SIC 3365 Aluminum Foundries
                  SIC 3366 Copper Foundries
                  SIC 3369 Nonferrous Foundries, Except Aluminum and Copper
                  NAICS 3315 Foundries
                  NAICS 331528 Other Nonferrous Foundries (except Die-Casting)
                  NAICS 331524 Aluminum Foundries (except Die-Casting)
                  NAICS 331525 Copper Foundries (except Die-Casting)
                  NAICS 331521 Aluminum Die-Casting Foundries
                  NAICS 331522 Nonferrous (except Aluminum) Die-Casting
                    Foundries
                  NAICS 331511 Iron Foundries
                  NAICS 331513 Steel Foundries (except Investment)
                  NAICS 331512 Steel Investment Foundries

Metal Powder:     SIC 2819 Industrial Inorganic Chemicals, Not Elsewhere Classified
                  SIC 2892 Explosives
                  SIC 2899 Chemicals and Chemical Preparations, Not Elsewhere
                    Classified
                  SIC 3313 Electrometallurgical Products, Except Steel
                  SIC 3399 Primary Metal Products, Not Elsewhere Classified
                  SIC 3499 Fabricated Metal Products, Not Elsewhere Classified

                                                         Recovery Act: OSHA Activities
                                         19               Report No. 18-13-004-10-105
                              Prepared by Harper, Rains, Knight & Company, P.A.
                   For the U. S. Department of Labor – Office of Inspector General

                SIC 5169 Chemicals and Allied Products, Not Elsewhere Classified
                NAICS 331314 Secondary Smelting and Alloying of Aluminum
                NAICS 331423 Secondary Smelting, Refining, and Alloying of
                  Copper
                NAICS 331221 Rolled Steel Shape Manufacturing
                NAICS 331492 Secondary Smelting, Refining, and Alloying of
                  Nonferrous Metal (except Copper and Aluminum)

Windows:        SIC 2431 Millwork
                SIC 3442 Metal Doors, Sash, Frames, Molding, and Trim
                  Manufacturing
                SIC 5031 Lumber, Plywood, Millwork, and Wood Panels
                NAICS 326199 All Other Plastics Product Manufacturing
                NAICS 321911 Wood Window and Door Manufacturing
                NAICS 332321 Metal Window and Door Manufacturing
                NAICS 327215 Glass Product Manufacturing Made of Purchased
                  Glass

Doors:          SIC 2421 Sawmills and Planing Mills, General
                SIC 2431 Millwork
                SIC 2675 Die-Cut Paper and Paperboard and Cardboard
                SIC 3441 Fabricated Structural Metal
                SIC 3442 Metal Doors, Sash, Frames, Molding, and Trim
                  Manufacturing
                SIC 3499 Fabricated Metal Products, Not Elsewhere Classified
                NAICS 326199 All Other Plastics Product Manufacturing
                NAICS 321911 Wood Window and Door Manufacturing
                NAICS 332321 Metal Window and Door Manufacturing
                NAICS 332999 All Other Miscellaneous Fabricated Metal Product
                  Manufacturing
                NAICS 327215 Glass Product Manufacturing Made of Purchased
                  Glass

Industrial
Coatings:       SIC 2851 Paints, Varnishes, Lacquers, enamels, and Allied
                  Products
                SIC 3479 Coating, Engraving, and Allied Services, Not Elsewhere
                  Classified
                NAICS 332812 Metal Coating, Engraving (except Jewelry and
                  Silverware), and Allied Services to Manufacturers
                NAICS 325510 Paint and Coating Manufacturing

Cable & Wire:   SIC 3315 Steel Wiredrawing and Steel Nails and Spikes
                SIC 3355 Aluminum Rolling and Drawing, Not Elsewhere Classified
                SIC 3357 Drawing and Insulating of Nonferrous Wire
                SIC 3496 Miscellaneous Fabricated Wire Products

                                                      Recovery Act: OSHA Activities
                                      20               Report No. 18-13-004-10-105
                               Prepared by Harper, Rains, Knight & Company, P.A.
                    For the U. S. Department of Labor – Office of Inspector General

                SIC 3499 Fabricated Metal Products, Not Elsewhere Classified
                NAICS 331422 Copper Wire (except Mechanical) Drawing
                NAICS 331222 Steel Wire Drawing
                NAICS 332618 Other Fabricated Wire Product Manufacturing

Insulation:     SIC 2493 Reconstituted Wood Products
                SIC 2621 Paper Mills
                SIC 2679 Converted Paper and Paperboard Products, Not
                  Elsewhere Classified
                SIC 3086 Plastics Foam Products
                SIC 3292 Asbestos Products
                SIC 3296 Mineral Wool
                NAICS 326150 Urethane and Other Foam Product (except
                  Polystyrene) Manufacturing
                NAICS 326140 Polystyrene Foam Product Manufacturing
                NAICS 321219 Reconstituted Wood Product Manufacturing

Energy-Saving
Lights:         SIC 3629 Electrical Industrial Apparatus, Not Elsewhere Classified
                SIC 3641Electric Lamp Bulbs and Tubes
                SIC 3646 Commercial, Industrial, and Institutional Electric Lighting
                  Fixtures
                NAICS 335110 Electric Lamp Bulb and Part Manufacturing
                NAICS 335122 Commercial, Industrial, and Institutional Electric
                  Lighting Fixture Manufacturing

Solar Panels:   SIC 3674 Semiconductors and Related Devices
                NAICS 334413 Semiconductor and Related Device Manufacturing

Photovoltaic
&
Rechargeable
Batteries:      SIC 3691 Storage Batteries
                SIC 3692 Primary Batteries, Dry and Wet
                NAICS 335911 Storage Battery Manufacturing
                NAICS 335912 Primary Battery Manufacturing

Pumps &
Valves:         SIC 3492 Fluid Power Valves and Hose Fittings
                SIC 3561 Pumps and Pumping Equipment
                SIC 3563 Air and Gas Compressors
                SIC 3586 Measuring and Dispensing Pumps
                SIC 3594 Fluid Power Pumps and Motors
                NAICS 333911 Pump and Pumping Equipment Manufacturing
                NAICS 333996 Fluid Power Pump and Motor Manufacturing
                NAICS 333913 Measuring and Dispensing Pump Manufacturing

                                                        Recovery Act: OSHA Activities
                                       21                Report No. 18-13-004-10-105
                              Prepared by Harper, Rains, Knight & Company, P.A.
                   For the U. S. Department of Labor – Office of Inspector General

                NAICS 333912 Air and Gas Compressor Manufacturing

Wind Power:     SIC 3511 Steam, Gas, and Hydraulic Turbines, and Turbine
                  Generator Set Units
                SIC 3523 Farm Machinery and Equipment
                NAICS 333611 Turbine and Turbine Generator Set Units
                  Manufacturing
                NAICS 333111 Farm Machinery and Equipment Manufacturing

Fiber Optics:   SIC 3357 Drawing and Insulating of Nonferrous Wire
                SIC 3999 Manufacturing Industries, Not Elsewhere Classified

                NAICS 335921 Fiber Optic Cable Manufacturing
                NAICS 334417 Electronic Connector Manufacturing

Heavy
Equipment:      SIC 3443 Fabricated Plate Work (Boiler Shops)
                SIC 3531 Construction Machinery and Equipment
                SIC 3532 Mining Machinery and Equipment, Except Oil and Gas
                  Field Machinery and Equipment
                NAICS 336120 Heavy Duty Truck Manufacturing
                NAICS 333120 Construction Machinery Manufacturing

Concrete:       SIC 3271 Concrete Block and Brick
                SIC 3272 Concrete Products, Except Block and Brick
                NAICS 327320 Ready-Mix Concrete Manufacturing
                NAICS 327331 Concrete Block and Brick Manufacturing
                NAICS 327390 Other Concrete Product Manufacturing
                NAICS 327999 All Other Miscellaneous Nonmetallic Mineral
                  Product Manufacturing

Rebar:          SIC 3312 Steel Works, Blast Furnaces (Including Coke Ovens),
                  and Rolling Mills
                SIC 3441 Fabricated Structural Metal
                SIC 3449 Miscellaneous Structural Metal Work
                NAICS 332312 Fabricated Structural Metal Manufacturing

Scrap Metal
Recycling &
Battery
Breaking:       SIC 5093 Scrap and Waste Materials
                NAICS 423930 Recyclable Material Merchant Wholesalers

Demolition
Material
Hauling:        SIC 4953 Refuse Systems

                                                      Recovery Act: OSHA Activities
                                      22               Report No. 18-13-004-10-105
                        Prepared by Harper, Rains, Knight & Company, P.A.
             For the U. S. Department of Labor – Office of Inspector General


          NAICS 562111 Solid Waste Collection
          NAICS 562112 Hazardous Waste Collection

Asphalt   SIC 1611 Asphalt paving; roads, public sidewalks, and streets
            contractors
          SIC 2951 Asphalt Paving Mixtures and Blocks Manufacturing
          NAICS 237310 Highway, Street, and Bridge Construction
          NAICS 324121 Asphalt Paving Mixture and Block Manufacturing




                                                Recovery Act: OSHA Activities
                                23               Report No. 18-13-004-10-105
           Prepared by Harper, Rains, Knight & Company, P.A.
For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                   Recovery Act: OSHA Activities
                   24               Report No. 18-13-004-10-105
                                                                        Prepared by Harper, Rains, Knight & Company, P.A.
                                                             For the U. S. Department of Labor – Office of Inspector General


                                                                   Exhibit 5
OSHA Listing of Recovery Act-Related Local Emphasis Programs and Regional Emphasis Programs

                               Summary of OSHA Recovery Act-related LEPs and REPs
Fiscal   Region               Description                                   Summary
 Year
2012       IV     Inspection of Stimulus Funded          The FY 2012 LEP evaluation summary has not been completed
                  Construction Activities-Region-        as we are currently in FY 2012. Evaluations are completed in
                  wide                                   November of the following FY.
2011       IV     Inspection of Stimulus Funded          For FY 2011, the area offices conducted 24 inspections under the
                  Construction Activities-Region-        REP. These inspections identified 40 violations with a total
                  wide                                   penalty assessed of $21,216. The average VPI was 2 and 37.5%
                                                         of the violations were cited as serious. As construction continues
                                                         to be funded under the American Recovery & Reinvestment Act
                                                         of 2009, this program will continue in FY 2012.
2011      VII     Inspection of Stimulus Funded          No inspections were conducted under this LEP in FY 2011. The
                  Construction Activities- ARRA-         LEP will not continue in FY 2012.
                  Wichita
2011      VII     Inspection of Stimulus Funded          No inspections were conducted under this LEP in FY 2011. The
                  Construction Activities – ARRA- St.    LEP will not continue in FY 2012.
                  Louis
2011      VII     Inspection of Stimulus Funded          The Area Office did not open any inspections under this LEP in
                  Construction Activities – ARRA-        FY 2011. This LEP was not renewed for FY 2012.
                  Kansas City
2011      VII     Bridge Construction ARRA –             No inspections were conducted for this LEP during FY 2011. This
                  Omaha                                  LEP will not continue in FY 2012.
2010       II     Heavy Highway and Bridge               In FY 2010, the area offices attempted 82 inspections, with 71
                  Construction and Maintenance-          inspections, covering 746 workers, being conducted. A total of
                  Region-wide                            128 serious, willful, repeat or failure- to- abate violations/notices
                                                         were issued. The VPI was 2.0. The total penalties assessed were
                                                         $520,430. This program will continue in FY 2011


                                                                                                 Recovery Act: OSHA Activities
                                                        25                                        Report No. 18-13-004-10-105
                                                                      Prepared by Harper, Rains, Knight & Company, P.A.
                                                           For the U. S. Department of Labor – Office of Inspector General

                              Summary of OSHA Recovery Act-related LEPs and REPs
Fiscal   Region              Description                                   Summary
 Year
2010       III    Stimulus Funded Construction         In FY 2010, 156 inspections were conducted, covering 7,065
                  Activities ARRA Other than Bridge    employees. One hundred forty inspections were in compliance.
                  Work and Road Work-zone-             The total amount of penalties assessed was $69,485 and 70.3%
                  Region-wide                          of the violations were cited as serious. The average VPI was 0.5.
                                                       This LEP will not be continued in FY 2011.
2010       III    American Recovery and                In FY 2010, the Area Offices conducted 23 inspections and
                  Reconstruction Act for Bridge        assessed $22,875 in total penalties. The inspections covered 302
                  Construction and Maintenance-        employees and 62.6% of the violations cited were serious. The
                  Region-wide                          average VPI was 0.5. This LEP will not be continued in FY 2011.
2010       IV     Stimulus Funded Construction         For FY 2010, the area offices conducted 173 inspections under
                  Activities - Region-wide             the REP. These inspections identified 255 violations with a total
                                                       penalty assessed of $436,803. As construction continues to be
                                                       funded under the American Recovery & Reinvestment Act of
                                                       2009, this program will continue in FY 2011.
2010       V      ARRA Construction at Federal         In FY 2010, nine inspections were conducted in which hazards
                  Facilities - Wisconsin Offices       were identified in eight of them. Eighty percent of the violations
                                                       were serious. This LEP has a positive impact on contractors
                                                       involved in construction projects at Federal sites by heightening
                                                       contractors’ awareness of the program, potential hazards, and
                                                       methods to eliminate them. However, this LEP will not continue in
                                                       FY 2011.
2010       V      ARRA Roadways, Bridges, Airport      In FY 2010, 35 inspections were conducted with 71.4% of the
                  Runways and Terminals - Region-      violations cited as serious. This LEP will not continue in FY 2011.
                  wide
2010       V      ARRA Construction at Federal         In FY 2010, four inspections were conducted with 83.3% of the
                  Facilities - Illinois Offices        violations issued as serious. This LEP will not continue in FY
                                                       2011.
2010      VII     Bridge Construction ARRA -           The Area Office attempted two inspections. One was in-
                  Omaha, Nebraska                      compliance and the other resulted in the issuance of serious
                                                       violations. Twenty five employees were covered and three

                                                                                              Recovery Act: OSHA Activities
                                                      26                                       Report No. 18-13-004-10-105
                                                                      Prepared by Harper, Rains, Knight & Company, P.A.
                                                           For the U. S. Department of Labor – Office of Inspector General

                              Summary of OSHA Recovery Act-related LEPs and REPs
Fiscal   Region              Description                                   Summary
Year
                                                       workers were removed from the hazard. Both violations related to
                                                       respirator hazards relative to potential silica exposure. Most of
                                                       the sites had limited activity when they were visited. Based on the
                                                       one (non-incompliance) inspection conducted and based on the
                                                       fatalities in SIC 1611, it is recommended that the program be
                                                       continued in FY 2011.
2010      VII     Stimulus Funded Construction         No inspections were conducted under this LEP in FY 2010. The
                  ARRA - St. Louis, Missouri           LEP is currently in effect and will be evaluated in FY 2011.
2010      VII     Stimulus Funded Construction         In FY 2010, 58 inspections were conducted, covering 380
                  Activities ARRA - Wichita, Kansas    employees. One hundred three employees were removed from
                                                       hazardous conditions and 93% of violations were issued as
                                                       serious. The total amount of penalties assessed was $35,530
                                                       with an average VPI of 1.2. This LEP will continue in FY 2011.
2010      VIII    Work Zone Safety - Region-wide       In FY 2010, there were 72 inspections. The REP covered 553
                                                       employees and resulted $107,588 in penalties issued. The VPI
                                                       was 1.7. This highly successful REP will be continued in FY
                                                       2011.
2010      VIII    ARRA Construction Activities         During 2010, 64 inspections were conducted covering 801
                  Region-wide                          employees and resulted in $97,412 in penalties. This LEP had
                                                       some impact but was duplicative and the targeting system never
                                                       was refined to identify construction sites that were receiving
                                                       stimulus funds. This LEP will not continue in FY 2011.
2010       IX     Inspections of Stimulus Funded       OSHA conducted 14 inspections under this LEP, covering 416
                  Activities - Region-wide             employees, assessing a total of $37,283 in penalties assessed.
                                                       Seventy-two percent of the violations were cited as serious. This
                                                       LEP will not be continued in FY 2011.
2010       X      Construction Sites Funded by the     OSHA conducted 14 inspections under this LEP, covering 416
                  American Recovery and                employees, assessing a total of $37,283 in penalties assessed.
                  Reinvestment Act - Boise, Idaho      Seventy-two percent of the violations were cited as serious. This
                                                       LEP will not be continued in FY 2011.

                                                                                              Recovery Act: OSHA Activities
                                                      27                                       Report No. 18-13-004-10-105
                                                                    Prepared by Harper, Rains, Knight & Company, P.A.
                                                         For the U. S. Department of Labor – Office of Inspector General

                              Summary of OSHA Recovery Act-related LEPs and REPs
Fiscal   Region              Description                                   Summary
 Year
2009       II     Fall Hazards in Construction       No ARRA specific results provided.
                  (added ARRA targeting language)
2009       II     Heavy Highway and Bridge           No ARRA specific results provided.
                  Construction and Maintenance
                  (added ARRA targeting language)
2009       II     Gut Rehabilitation and             No ARRA specific results provided.
                  Demolition(added ARRA targeting
                  language)
2009       II     Construction Worksites - Local     No ARRA specific results provided.
                  Targeting (added ARRA targeting
                  language)
2009       II     Local Implementation of Lead       No ARRA specific results provided.
                  NEP(added ARRA targeting
                  language)
2009       II     Local Implementation of NEP -      No ARRA specific results provided.
                  Crystalline Silica (added ARRA
                  targeting language)
2009       III    Stimulus Funded Construction       In FY 2009, 17 inspections were conducted, covering 105
                  Activities (ARRA) Other than       employees. All of the inspections were in compliance. It is the
                  Bridge Work and Road Work-zone     opinion of the Philadelphia Regional Office that this REP did not
                  - Region-wide                      meet its goal. Although the program has a lot of potential, the
                                                     system used to target these types of inspections proved less than
                                                     effective. Although the targeting was less than effective, the REP
                                                     does have the potential to protect workers from hazards
                                                     associated with construction and will be continued in FY 2010.
2009       III    American Recovery and              In FY 2009, the Area Offices conducted 29 inspections and
                  Reconstruction Act for Bridge      assessed $26,892 in total penalties. The inspections covered
                  Construction and Maintenance -     1,737 employees and 5.5% of the violations cited were serious.
                  Region-wide                        The average VPI was 4.9. It was the consensus throughout the
                                                     area offices that employers are aware of OSHA’s focus on bridge

                                                                                            Recovery Act: OSHA Activities
                                                    28                                       Report No. 18-13-004-10-105
                                                                      Prepared by Harper, Rains, Knight & Company, P.A.
                                                           For the U. S. Department of Labor – Office of Inspector General

                              Summary of OSHA Recovery Act-related LEPs and REPs
Fiscal   Region              Description                                   Summary
Year
                                                       safety and are enforcing safety and health rules. Despite the fact
                                                       that the targeting information provided to the area offices proved
                                                       to be highly inaccurate, this REP will continue in FY 2010 as
                                                       bridge construction and maintenance related hazards continue to
                                                       be a leading cause of fatalities.
2009      VII     Bridge Construction ARRA -           In FY 2009, most of the sites inspected had only limited activity.
                  Omaha, Nebraska                      There was only an “in-compliance” inspection conducted, and it
                                                       covered 31 workers. In the attempt to visit the programmed sites,
                                                       other related ARRA construction sites were identified. Five such
                                                       inspections were attempted, and four were conducted. Of these
                                                       four inspections, serious violations were identified on each of
                                                       them. In total, there were six employees removed from hazards.
                                                       The VPI was 1.5. Based on the four related inspections and on
                                                       the Agency’s emphasis on ARRA sites, this program continue in
                                                       FY 2010.
2009      VII     Stimulus Funded Construction         No inspections were conducted under this LEP in FY 2009. The
                  ARRA - St. Louis, Missouri           LEP is currently in effect and will be evaluated in FY 2010.
2009      VII     Stimulus Funded Construction         In FY 2009, 10 inspections were conducted, covering 12
                  Activities ARRA - Wichita, Kansas    employees. The total amount of penalties assessed was $4,000
                                                       with an average VPI of 0.1. This LEP will continue in FY 2010.
2009      VII     Stimulus Funded Construction         No inspections were conducted under this LEP in FY 2009. The
                  ARRA - Kansas City, Missouri         LEP is currently in effect and will be evaluated in FY 2010.
2009       IX     Inspections of Stimulus Funded       OSHA conducted four inspections under this LEP, covering 51
                  Activities - Region-wide             employees, assessing a total of $1,650 in initial penalties. Forty
                                                       percent of the violations were cited as serious. Due to the nature
                                                       of the work and the anticipated number of sites, it is
                                                       recommended that this LEP be continued in FY 2010.

Source: OSHA Directorate of Enforcement Programs


                                                                                              Recovery Act: OSHA Activities
                                                      29                                       Report No. 18-13-004-10-105
           Prepared by Harper, Rains, Knight & Company, P.A.
For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                   Recovery Act: OSHA Activities
                  30                Report No. 18-13-004-10-105
                    Prepared by Harper, Rains, Knight & Company, P.A.
         For the U. S. Department of Labor – Office of Inspector General




Appendices




                                            Recovery Act: OSHA Activities
                            31               Report No. 18-13-004-10-105
           Prepared by Harper, Rains, Knight & Company, P.A.
For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                   Recovery Act: OSHA Activities
                   32               Report No. 18-13-004-10-105
                                   Prepared by Harper, Rains, Knight & Company, P.A.
                        For the U. S. Department of Labor – Office of Inspector General

                                                                             Appendix A
Background

The Recovery Act (P.L. 111-5) was signed into law on February 17, 2009. The Recovery
Act provided the DOL with more than $40 billion to, among other things, increase
employment and training opportunities for those most impacted by the recession.

The Recovery Act was enacted as a direct response to the economic crisis and had 3
immediate goals: 1) create new jobs and save existing ones, 2) spur economic activity
and invest in long-term growth, and 3) foster unprecedented levels of accountability and
transparency in government spending to ensure the public can see how their tax dollars
were spent and to see if recipients of these dollars delivered programmatic results. The
Act initially provided $787 billion for these goals. This amount later increased to $840
billion.

The Recovery Act designated $80 million for Department Management (DM) purposes.
DM funding was to be used for the enforcement of worker protection laws and
regulations, oversight, and encouraging collaboration between the public workforce
investment system and other agencies that received Recovery Act funds for
infrastructure projects. The Recovery Act required the Department to submit an
operating plan to Congress explaining its planned use for $80 million, which, according
to the Recovery Act, should have been obligated by September 30, 2010. The
Department’s initial operating plan for the use of $80 million in DM funds included
transferring approximately $13.6 million to OSHA for enhanced inspection and
enforcement activities.

With the Occupational Safety and Health Act of 1970, Congress created OSHA to
establish and enforce workplace standards that protect workers' rights and ensure that
employers act responsibly to provide workplaces that are free from known dangers that
can hurt workers. OSHA protected worker safety and health at projects funded under the
Recovery Act through targeted enforcement, and construction data collection. OSHA
also worked with federally-approved State Plans to enhance their enforcement efforts at
Recovery Act-funded projects and produced compliance assistance and outreach
materials that provided compliance assistance and safety and health information to
workers and employers engaged in Recovery Act work. OSHA, as required by OMB,
developed a Recovery Act plan that described how the agency would use the DM funds
to carry out its enforcement, standard setting, and training and outreach responsibilities
and enforcement activities.

According to OSHA’s Recovery Act Plan, the agency intended to use the additional
funds to increase inspections by 2,725 during the life of the funds. OSHA anticipated
these inspections in connection with Recovery Act-funded construction, transportation,
and related projects. To direct enforcement activity to Recovery Act-funded projects,
OSHA stated that it planned to develop and implement local and national emphasis
programs targeting Recovery Act-funded projects. In order to accomplish these

                                                             Recovery Act: OSHA Activities
                                            33                Report No. 18-13-004-10-105
                                   Prepared by Harper, Rains, Knight & Company, P.A.
                        For the U. S. Department of Labor – Office of Inspector General
additional inspections, OSHA planned to utilize existing experienced inspectors to
conduct inspections using salaries and expenses funds that would equal 76 full-time
equivalent (FTE) staff. Later OSHA revised that estimate to the equivalent of 43 FTE.

Local Emphasis Programs (LEP) are enforcement strategies designed and implemented
at the Regional Office and/or Area Office levels. These programs are intended to
address hazards or industries that pose a particular risk to workers in the Office’s
jurisdiction.

The emphasis programs may be implemented by a single Area Office or at the Regional
level (Regional Emphasis Programs) and applied to all of the Area Offices within the
Region. Often times, these LEPs will be accompanied by outreach intended to make
employers in the area aware of the program as well as the hazards that the programs
are designed to reduce or eliminate. This outreach may be in the form of informational
mailings, training at local tradeshows, or speeches at meetings of industry groups or
labor organizations.




                                                            Recovery Act: OSHA Activities
                                           34                Report No. 18-13-004-10-105
                                    Prepared by Harper, Rains, Knight & Company, P.A.
                         For the U. S. Department of Labor – Office of Inspector General

                                                                              Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

The audit objectives were to answer the following questions:

   (1) How di d O SHA s pend Recovery A ct funds and di d it ac hieve its obj ectives f or
       increased c ompliance as sistance, c onstruction da ta, and State P lan s tate
       enforcement activities?

   (2) Did OSHA achieve its objective, as described in its Recovery Act Plan, to conduct
       additional inspections and enforcement activities?

Scope

Our performance audit period was from February 17, 2009, the enactment of the
Recovery Act, through September 30, 2011, and included all Recovery Act-related
OSHA activity at the National Office, Regional Offices, and State Plan states funded
with Recovery Act discretionary grants.

Our performance audit was not designed to, and we did not, perform a financial audit of
the amounts obligated or expended by OSHA.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for findings
and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Methodology

In planning and performing our audit, we considered OSHA’s internal controls that were
relevant to our audit objectives. We confirmed our understanding of these controls
through interviews and reviews of policies and procedures. Our consideration of internal
controls relevant to our audit objectives would not necessarily disclose all matters that
might be significant deficiencies. Because of inherent limitations in internal controls,
noncompliance may nevertheless occur and not be detected.

We conducted structured interviews with officials at OSHA, OSHA Regional Offices, and
State Plan states to understand the internal controls, processes, systems and
procedures used to capture, compile, analyze and measure the impact of Recovery Act
funding. We reviewed budgets and sub-ledgers for FYs 2008 through 2011 to confirm
the amount of Recovery Act funding allotted to and obligated by OSHA. We obtained

                                                              Recovery Act: OSHA Activities
                                             35                Report No. 18-13-004-10-105
                                   Prepared by Harper, Rains, Knight & Company, P.A.
                        For the U. S. Department of Labor – Office of Inspector General
and reviewed documentation, including evaluation summaries, for Local and Regional
Emphasis Programs established under the Recovery Act.

We identified six OSHA Recovery Act contracts in the New Core Financial Management
System (NCFMS), totaling approximately $2.1 million, and tested all six contracts to
determine the contract was awarded during the period Recovery Act funds were
available, included the required Recovery Act disclosures, documented relevance to or
support for being funded through the Recovery Act, and matched records in NCFMS to
OSHA vouchers supporting the disbursement of funds.

We reviewed grant records for the seven grants issued totaling approximately
$1.6 million. We tested all seven grants closeout packages for timely submission of
Federal Status Report Forms, inclusion of signed grant agreements, and certification for
Recovery Act reporting. On a sample basis we selected and visited four State Plan
states. We performed structured interviews with the officials and reviewed support for
the grant objectives.

We selected a statistical sample of 163 Recovery Act-coded inspections. The
163 inspections covered all ten OSHA Regional offices. The sample came from the
provided OSHA’s Integrated Management Information System (IMIS) and the OSHA
Information System (OIS) for the Recovery Act optional value and was pulled from
calendar year data covering 2009 through 2011, which included FY 2009, FY 2010, and
FY 2011. For all sampled items, we tested inspection report supporting documentation in
the form of the OSHA 1, OSHA 1A, and OSHA 31. Based upon these tests and
assessments, we concluded the data was sufficiently reliable to be used in meeting the
objectives.

Criteria

We used the following to perform the audit:

•   American Recovery and Reinvestment Act of 2009;
•   OMB Memorandum 09-15, Updated Implementing Guidance for the American
    Recovery and Reinvestment Act of 2009, April 3, 2009
•   OSHA Recovery Act Plan




                                                            Recovery Act: OSHA Activities
                                              36             Report No. 18-13-004-10-105
                                 Prepared by Harper, Rains, Knight & Company, P.A.
                      For the U. S. Department of Labor – Office of Inspector General
                                                                         Appendix C
Acronyms and Abbreviations

ARRA           American Recovery and Reinvestment Act of 2009
CPA            Certified Public Accountant
DM             Departmental Management
DOL            Department of Labor
ETA            Employment and Training Administration
FTE            Full Time Equivalent
FY             Fiscal Year
GAGAS          Generally Accepted Governmental Accounting Standards
IMIS           Integrated Management Information System
LEP            Local Emphasis Program
NAICS          North American Industry Classification System
NEP            National Emphasis Program
OIG            Office of Inspector General
OIS            OSHA Information System
OMB            Office of Management and Budget
OSHA           Occupational Safety and Health Administration
P.A.           Professional Association
P.L.           Public Law
Recovery Act   American Recovery and Reinvestment Act of 2009
REP            Regional Emphasis Program
S&E            Salaries and Expenses
SIC            Standard Industry Classification
VPI            Violations per Inspection




                                                         Recovery Act: OSHA Activities
                                           37             Report No. 18-13-004-10-105
           Prepared by Harper, Rains, Knight & Company, P.A.
For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                   Recovery Act: OSHA Activities
                  38                Report No. 18-13-004-10-105
                               Prepared by Harper, Rains, Knight & Company, P.A.
                    For the U. S. Department of Labor – Office of Inspector General

                                                                       Appendix D
OSHA Response to Draft Report




                                                       Recovery Act: OSHA Activities
                                      39                Report No. 18-13-004-10-105
           Prepared by Harper, Rains, Knight & Company, P.A.
For the U. S. Department of Labor – Office of Inspector General




                                   Recovery Act: OSHA Activities
                  40                Report No. 18-13-004-10-105
           Prepared by Harper, Rains, Knight & Company, P.A.
For the U. S. Department of Labor – Office of Inspector General




                                   Recovery Act: OSHA Activities
                  41                Report No. 18-13-004-10-105
           Prepared by Harper, Rains, Knight & Company, P.A.
For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                   Recovery Act: OSHA Activities
                  42                Report No. 18-13-004-10-105
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov

Telephone:   1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210
